July 29, 2020

Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First St., NE
Washington, DC 20543
Re:

No. 19-351, Federal Republic of Germany, A Foreign State, and Stiftung Preussischer
Kulturbesitz, an Instrumentality of a Foreign State v. Alan Philipp, et al.

Dear Clerk Harris:
I am counsel of record for respondents in Federal Republic of Germany, A Foreign State,
and Stiftung Preussischer Kulturbesitz, an Instrumentality of a Foreign State v. Alan Philipp,
et al., No. 19-351. On behalf of counsel of record for petitioners and respondents, I am
writing to request an extension of time for filing the briefs on the merits, as follows:
Petitioners’ brief:
Respondents’ brief:
Reply brief:

September 4
October 22
November 23 (a Monday), or by 2pm on November 20 if
the argument is scheduled for the week of November
30.

Counsel for petitioners and respondents have agreed to this proposed schedule.
Thank you very much for your time and assistance in this matter.
Very truly yours,

/s/ Nicholas M. O'Donnell
Direct line: 617-338-2814
nodonnell@sullivanlaw.com
cc: Jonathan Freiman (by e-mail)

{S2626905; 1}

